<html>
<title> - NSF MAJOR MULTI-USER RESEARCH FACILITIES MANAGEMENT: ENSURING FISCAL RESPONSIBILITY AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                     NSF MAJOR MULTI-USER RESEARCH

                         FACILITIES MANAGEMENT:

           ENSURING FISCAL RESPONSIBILITY AND ACCOUNTABILITY
=======================================================================


                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, APRIL 18, 2012

                               __________

                           Serial No. 112-76

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-056                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                TERRI A. SEWELL, Alabama
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan               EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas


                            C O N T E N T S

                       Wednesday, April 18, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    16
    Written Statement............................................    16

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    17
    Written Statement............................................    18

                               Witnesses:

Dr. Ethan J. Schreier, President, Associated Universities, Inc.
    Oral Statement...............................................    19
    Written Statement............................................    22

Dr. William S. Smith, Jr., President, Association of Universities 
  for Research in Astronomy
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. David Divins, Vice President and Director, Ocean Drilling 
  Programs, Consortium for Ocean Leadership, Inc.
    Oral Statement...............................................    57
    Written Statement............................................    59

Dr. Gregory S. Boebinger, Director, National High Magnetic Field 
  Laboratory and Professor of Physics, Florida State University 
  and University of Florida
    Oral Statement...............................................    68
    Written Statement............................................    70

Dr. Sol Michael Gruner, Director, Cornell High Energy Synchrotron 
  Source and The John L. Wetherill Professor of Physics, Cornell 
  University
    Oral Statement...............................................    87
    Written Statement............................................    89

             Appendix I: Answers to Post-Hearing Questions

Dr. Ethan J. Schreier, President, Associated Universities, Inc...   112

Dr. William S. Smith, Jr., President, Association of Universities 
  for Research in Astronomy......................................   116

Dr. David Divins, Vice President and Director, Ocean Drilling 
  Programs, Consortium for Ocean Leadership, Inc.................   120

Dr. Gregory S. Boebinger, Director, National High Magnetic Field 
  Laboratory and Professor of Physics, Florida State University 
  and University of Florida......................................   122

Dr. Sol Michael Gruner, Director, Cornell High Energy Synchrotron 
  Source and The John L. Wetherill Professor of Physics, Cornell 
  University.....................................................   127


                     NSF MAJOR MULTI-USER RESEARCH


                         FACILITIES MANAGEMENT:


                     ENSURING FISCAL RESPONSIBILITY


                           AND ACCOUNTABILITY

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] 74056.104

[GRAPHIC] [TIFF OMITTED] 74056.001

[GRAPHIC] [TIFF OMITTED] 74056.002

[GRAPHIC] [TIFF OMITTED] 74056.003

[GRAPHIC] [TIFF OMITTED] 74056.004

[GRAPHIC] [TIFF OMITTED] 74056.005

[GRAPHIC] [TIFF OMITTED] 74056.006

[GRAPHIC] [TIFF OMITTED] 74056.007

[GRAPHIC] [TIFF OMITTED] 74056.008

[GRAPHIC] [TIFF OMITTED] 74056.009

[GRAPHIC] [TIFF OMITTED] 74056.010

[GRAPHIC] [TIFF OMITTED] 74056.011

[GRAPHIC] [TIFF OMITTED] 74056.012

[GRAPHIC] [TIFF OMITTED] 74056.013

    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order.
    Good morning. Welcome to today's hearing entitled ``NSF 
Major Multi-User Research Facilities Management: Ensuring 
Fiscal Responsibility and Accountability.'' The purpose of 
today's hearing is to examine the planning, management, 
operations and stewardship of major multi-user research 
facilities funded through the National Science Foundation. I 
now recognize myself for five minutes for an opening statement.
    We all are pleased to have all of our witnesses joining us 
this morning to continue our discussion concerning oversight of 
the NSF's multi-user equipment and facilities. I look to my 
colleague, Mr. Lipinski, and my fellow Subcommittee members on 
both sides of the aisle to work with us to continue to ensure 
the Subcommittee performs its legislative, oversight and 
investigative duties with due diligence on matters within its 
jurisdiction throughout the 112th Congress and, as always, 
appreciate their valued experience and insights.
    As mentioned in our last hearing, investments in major 
multi-user research facilities comprise approximately 15 
percent of the National Science Foundation's portfolio. The 
total fiscal year 2013 National Science Foundation budget 
request for major multi-user research facilities is $1.1 
billion. Of that amount, $196 million is requested for the 
major research equipment and facilities construction line item 
and $923 million is requested for the Research and Related 
Activities line item. We looked primarily at the major research 
equipment and facilities construction account in our last 
hearing. This hearing will focus more on the Research and 
Related Activities funding side as those funds support the 
operations and maintenance of existing facilities, Federally 
Funded Research and Development Centers, and planning and 
development activities.
    Major multi-user facilities can include telescopes, 
accelerators, distributed instrumentation networks and arrays, 
and research vessels. This research infrastructure has a 
significant impact on large segments of the science and 
engineering population. We in Congress need to ensure the 
planning, operations, management and overall stewardship of 
these projects is being carried out responsibly and in the best 
interest of the American taxpayer.
    The National Science Board and National Science Foundation 
are currently involved in examining the process of 
recompetition for these major multi-user facilities in order to 
``assure the best use of National Science Foundation funds for 
supporting research and education.'' Our hearing today will 
look at the way these facilities are run and managed as well as 
the issue of recompetition.
    I am eager to hear more about how these important 
facilities are managed, including recompetition practices, and 
to discuss how we in Congress can continue to support these 
worthwhile endeavors while ensuring financial and fiscal 
responsibility.
    [The prepared statement of Mr. Brooks follows:]

                Prepared Statement of Chairman Mo Brooks
    Good morning and welcome. We are pleased to have all of our 
witnesses joining us this morning to continue our discussion concerning 
oversight of NSF's multi-user equipment and facilities. I look to my 
colleague, Mr. Lipinski, and my fellow Subcommittee members on both 
sides of the aisle to work with me continue to ensure the Subcommittee 
performs its legislative, oversight, and investigative duties with due 
diligence on matters within its jurisdiction throughout the 112th 
Congress and, as always, appreciate their valued experience and 
insights.
    As mentioned in our last hearing, investments in major multi-user 
research facilities comprise approximately 15 percent of NSF's 
portfolio. The total FY13 NSF budget request for major multi-user 
research facilities is $1.1 billion. Of that amount, $196 million is 
requested for the MREFC line item and $923 million is requested for the 
Research and Related Activities (RRA) line item. We looked primarily at 
the MREFC account in our last hearing. This hearing will focus more on 
the RRA funding side as those funds support the operations and 
maintenance of existing facilities, Federally Funded Research and 
Development Centers (FFRDCs), and planning and development activities.
    Major multi-user facilities can include telescopes, accelerators, 
distributed instrumentation networks and arrays, and research vessels. 
This research infrastructure has a significant impact on large segments 
of the science and engineering population. We in Congress need to 
ensure the planning, operations, management and overall stewardship of 
these projects is being carried out responsibly and in the best 
interest of the American taxpayer.
    The National Science Board and NSF are currently involved in 
examining the process of recompetition for these major multi-user 
facilities in order to ``assure the best use of NSF funds for 
supporting research and education.'' Our hearing today will look at the 
way these facilities are run and managed as well as the issue of 
recompetition.
    I am eager to hear more about how these important facilities are 
managed, including recompetition practices, and to discuss how we in 
Congress can continue to support these worthwhile endeavors while 
ensuring fiscal responsibility.

    Chairman Brooks. The Chair now recognizes Mr. Lipinski for 
an opening statement.
    Mr. Lipinski. Thank you, Chairman Brooks.
    As I stated at last month's hearing on NSF's MREFC account, 
how we prioritize, fund, manage and oversee major research 
facilities, and also how we balance facility funding with 
research grant funding, are all important subjects for 
oversight by our subcommittee. So I am pleased we are having 
this series of hearings.
    At last month's hearing we had a very interesting 
discussion about facility planning and construction, including 
how facility managers calculate and manage contingency budgets 
and how NSF oversees the whole process. So today's hearing 
begins where the last one left off.
    My understanding is that this hearing is not the result of 
any specific oversight concern, but rather a broad examination 
of the status of NSF's policies for and oversight of the 
management and operations of large facilities. It has been 
about ten years since the Subcommittee last formally reviewed 
NSF's facilities policies, and much has changed in the interim. 
Most importantly, I wasn't on the Subcommittee or even in 
Congress ten years ago, and neither was the chairman. So I 
appreciate the effort by the chairman to educate Subcommittee 
members on where things stand so that we will be better 
equipped to anticipate and mitigate any problems in the future.
    To that end, the policy topic today that is of particular 
interest to me is recompetition of management contracts. In 
2008, the National Science Board strongly endorsed a 
recompetition policy for major facility awards. How this is to 
be implemented across the full spectrum of facility types and 
management structures remains unresolved. How would 
recompetition work for the MagLab or CHESS, for example, which 
physically sit on land owned by the respective universities 
that manage them? How would recompetition work for any of the 
facilities with significant international partnerships?
    I would also like to discuss the process for 
decommissioning user facilities. That includes how a decision 
to decommission a facility is made and how decommissioning 
costs are allocated. Without an agency or Board witness 
present, I don't think we can get into a full discussion of 
recompetition or decommissioning policy this morning but I 
certainly would be interested to hear this panel's perspectives 
on these issues so that we can further pursue it with the 
agency itself.
    With that, I look forward to hearing about each of your 
respective facilities, both the exciting science you are doing 
and your stewardship of the taxpayer dollars that support these 
facilities.
    With that, I will yield back.
    [The prepared statement of Mr. Lipinski follows:]

          Prepared Statement of Ranking Member Daniel Lipinski
    Thank you Chairman Brooks. As I stated at last month's hearing on 
NSF's MREFC Account, how we prioritize, fund, manage, and oversee major 
research facilities, and also how we balance facility funding with 
research grant funding, are all important subjects for oversight by our 
subcommittee. So I am pleased we are having this series of hearings.
    At last month's hearing we had a very interesting discussion about 
facility planning and construction, including how facility managers 
calculate and manage contingency budgets and how NSF oversees the whole 
process. Today's hearing begins where the last one left off.
    My understanding is that this hearing is not the result of any 
specific oversight concern, but rather a broad examination of the 
status of NSF's policies for and oversight of the management and 
operations of large facilities. It has been about 10 years since the 
subcommittee last formally reviewed NSF's facilities policies, and much 
has changed in the interim; most importantly, I wasn't here on this 
subcommittee or even in Congress 10 years ago, and neither was the 
Chairman. I appreciate this effort by the chairman to educate 
Subcommittee members on where things stand so that we will be better 
equipped to anticipate and mitigate any problems in the future.
    To that end, the policy topic today that is of particular interest 
to me is recompetition of management contracts. In 2008 the National 
Science Board strongly endorsed a recompetition policy for major 
facility awards. How this is to be implemented across the full spectrum 
of facility types and management structures remains unresolved. How 
would recompetition work for the MagLab or CHESS, for example, which 
physically sit on land owned by the respective universities that manage 
them? How would recompetition work for any of the facilities with 
significant international partnership?
    I would also like to discuss the process for decommissioning user 
facilities. That includes how a decision to decommission a facility is 
made and how decommissioning costs are allocated. Without an agency or 
Board witness present, I don't think we can get into a full discussion 
of recompetition or decommissioning policy this morning. But I 
certainly would be interested to hear this panel's perspectives on 
these issues so that we can further pursue it with the agency itself.
    With that, I look forward to hearing about each of your respective 
facilities--both the exciting science you are doing and your 
stewardship of the taxpayer dollars that support these facilities.

    I yield back.

    Chairman Brooks. Thank you, Mr. Lipinski.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witness panel 
for today's hearing. Our first witness will be Dr. Ethan J. 
Schreier, President of the Associated Universities, Inc. 
Associated Universities, Inc. manages the National Radio 
Astronomy Observatory for the National Science Foundation and 
is the North American Executive for the international Atacama 
Large Millimeter Array under construction in northern Chile.
    Our second witness is Dr. William S. Smith, Jr., President 
of the Association of Universities for Research and Astronomy. 
At the Association of Universities for Research and Astronomy, 
Dr. Smith acts as the Chief Executive Officer and sets the 
overall direction and policy for the Space Telescope Science 
Institute, the International Gemini Program, the National 
Optical Astronomy Observatory, and the National Solar 
Observatory.
    Our third witness is Dr. David Divins. He is the Vice 
President and Director of the Ocean Drilling Programs at the 
Consortium for Ocean Leadership, Inc. Dr. Divins serves as the 
Program Director and Principal Investigator of the System 
Integration Contract for the Integrated Ocean Drilling Program.
    Our fourth witness is Dr. Gregory S. Boebinger, the 
Director of the National High Magnetic Field Laboratory and 
Professor of Physics at Florida State University and the 
University of Florida. Dr. Boebinger is responsible for all 
three campuses of the National High Magnetic Field Laboratory, 
the headquarters at Florida State University, the Pulse Magnet 
Laboratory at Los Alamos National Laboratory, and the Ultra Low 
Temperature and Magnetic Resonance Imaging Laboratories at the 
University of Florida.
    Our final witness is Dr. Sol Michael Gruner, the Director 
of the Cornell High Energy Synchrotron Source and the John L. 
Wetherill Professor of Physics at Cornell University. In 1997, 
Dr. Gruner joined Cornell University as Director and Principal 
Investigator of the Cornell High Energy Synchrotron Source 
Facility and as a Faculty Member in the physics department and 
the Laboratory of Applied and Solid State Research.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
will have five minutes each to ask questions. Given our time 
availability and our having at this point three Congressmen, 
while we prefer that you limit yourself to five minutes, you 
will be given a little bit of latitude as will the Congressmen 
as they ask questions.
    So with that, I now recognize our first witness, Dr. Ethan 
Schreier. Dr. Schreier, you are recognized for five minutes.

              STATEMENT OF DR. ETHAN J. SCHREIER,

            PRESIDENT, ASSOCIATED UNIVERSITIES, INC.

    Dr. Schreier. Thank you, Chairman Brooks, Ranking Member 
Lipinski and distinguished Members. Thank you for this 
opportunity. I am Ethan Schreier, President of AUI, a nonprofit 
research management corporation that operates the National 
Radio Astronomy Observatory, NRAO, under cooperative agreement 
with NSF.
    AUI's stated mission is to promote education, discovery and 
innovation by uniting resources of universities, research 
organizations and the government, and building and operating 
forefront multi-user scientific facilities. We have been in 
operation since 1946.
    NRAO provides transformational scientific capabilities in 
radio astronomy that enable astronomers to answer fundamental 
questions about the universe. Radio astronomy has opened new 
vistas into the universe and uncovering the birthplace of stars 
and planets, studying super-massive black holes, neutron stars, 
gravitational waves and the remnant heat of the Big Bang.
    AUI created NRAO over 50 years ago at the request of the 
university research community. NRAO has been the world's 
premier radio astronomy observatory ever since. Under AUI 
stewardship, NRAO has built and operated the most advanced 
radio telescopes in the world, developed state-of-the-art 
technology, brought benefits to the public, promoting, science, 
technology, engineering and math education.
    NRAO currently operates four unique world-leading 
telescopes: the iconic Very Large Array in New Mexico, the very 
large Green Bank Telescope in West Virginia, the 
transcontinental Very Long Baseline Array, which has ten dishes 
spread over 5,000 miles across the United States from the 
Virgin Islands to Hawaii, and of course, the new international 
Atacama Large Millimeter/submillimeter Array, ALMA, in Chile at 
an altitude of 16,000 feet for which AUI is the North American 
lead.
    AUI closely manages NRAO with very active goverance, with 
continuing technical, programmatic, fiscal review and 
oversight, and close communication with both NSF and with the 
research community. Public support for fundamental research has 
consistently resulted in very practical benefits as well for 
the Nation. For example, NRAO pioneered technology that was 
later adopted for medical imaging, and technology used in cell 
phones. AUI and NRAO also actively leverage radio astronomy 
investments to promote STEM education, as I mentioned, with 
proven outreach and dissemination activities across the 
country. For example, in the NSF-funded Pulse Search 
Collaboratory, high school students and, for that matter, their 
teachers, search for pulsars using NRAO data and then they can 
publish their discoveries with active astronomers. Surveys have 
shown that female students, in particular, gain substantial 
confidence in math and science after participating. In programs 
we have our student interns learn by working at NRAO in 
engineering as well as science.
    The current fiscal environment presents a unique challenge 
to AUI in maintaining its status as the world's forefront radio 
observatory. We may, for the first time in our history, be 
forced to close a telescope that is still a forefront 
observatory and one of the leading observatories of the world. 
Previously, NRAO would retire telescopes only after they became 
obsolete. This chart shows that we have retired seven. None of 
NRAO's first-generation telescopes dating back to the 1950s, 
1960s, 1970s are still in operation.
    To protect the operation of our current world-leading 
facilities, we are actively continuing to seek external 
partners and leverage their contributions to maintain 
leadership, U.S. leadership. U.S. leadership and our core 
competence in radio astronomy, which we do have, is also 
threatened by the potential spilt of domestic NRAO facilities 
and ALMA.
    The National Science Board issued a resolution urging 
recompetition of ALMA separately from the rest of NRAO when the 
cooperative agreement with NSF is competed next year. 
Separating ALMA from NRAO would put the success of ALMA at 
great risk, compromising three decades of work by experienced 
and expert NRAO staff in the planning of ALMA, the design, the 
construction, and the operation, working in close collaboration 
with the astronomy community and our foreign partners. It would 
result in an enormous loss of efficiency and expertise, 
increase complexity and cost, and put U.S. scientists at a 
disadvantage in the international ALMA partnership in using the 
facility. AUI sees its role as ensuring that U.S. research has 
reaped the benefits of the large U.S. investment in ALMA, the 
world's newest and most transformational radio facility.
    AUI's NRAO has been a pioneer in radio astronomy for 56 
years now. The experience gained in building and operating the 
world's leading radio facilities is guiding our way forward in 
these rather difficult fiscal times. Our goal is to keep the 
United States in the lead of this key scientific discipline and 
to continue unlocking the secrets of the universe.
    Again, thank you for giving me the opportunity to testify 
today. I have provided additional details and recommendations 
in my written testimony. Thank you.
    [The prepared statement of Dr. Schreier follows:]
    [GRAPHIC] [TIFF OMITTED] 74056.014
    
    [GRAPHIC] [TIFF OMITTED] 74056.015
    
    [GRAPHIC] [TIFF OMITTED] 74056.016
    
    [GRAPHIC] [TIFF OMITTED] 74056.017
    
    [GRAPHIC] [TIFF OMITTED] 74056.018
    
    [GRAPHIC] [TIFF OMITTED] 74056.019
    
    [GRAPHIC] [TIFF OMITTED] 74056.020
    
    [GRAPHIC] [TIFF OMITTED] 74056.021
    
    [GRAPHIC] [TIFF OMITTED] 74056.022
    
    [GRAPHIC] [TIFF OMITTED] 74056.023
    
    [GRAPHIC] [TIFF OMITTED] 74056.024
    
    [GRAPHIC] [TIFF OMITTED] 74056.025
    
    [GRAPHIC] [TIFF OMITTED] 74056.026
    
    [GRAPHIC] [TIFF OMITTED] 74056.105
    
    Chairman Brooks. Thank you, Dr. Schreier.
    The Chair now recognizes Dr. Smith for his five minutes.

            STATEMENT OF DR. WILLIAM S. SMITH, JR.,

                  ASSOCIATION OF UNIVERSITIES

                   FOR RESEARCH IN ASTRONOMY

    Dr. Smith. Thank you, Chairman Brooks, Mr. Lipinski and 
other Members of the Committee. It is a privilege to be able to 
testify to this Committee that plays such an important role in 
looking at the balance of investments within the NSF, so this 
is a very useful hearing for you to have called.
    I will use acronyms if you permit. Association of 
Universities for Research and Astronomy, or AURA, is a 
consortium of universities, and we manage the optical 
telescopes which are different from the radio telescopes. They 
look different. They are placed in different locations. But 
many of the things that Dr. Schreier said also apply to the 
telescopes that we manage. Our facilities are open to all 
researchers on a peer-review basis.
    The NSF and AURA partnered in the late 1950s to provide an 
alternative to what was then only privately operated 
telescopes, and they did this to ensure broad community 
participation and access. This decision was extremely important 
and has been fundamental to the development of astronomy in the 
United States since that time. Ours and I would also say Dr. 
Schreier's are the publicly funded and publicly available 
telescopes, and in the optical area, they are the only ones, so 
they are extremely important in serving the role. The nurturing 
of strong national organizations that can support the NSF 
mission and that of the science community to fulfill its 
potential is a mutual goal both of the NSF and the AURA, and we 
work very closely together in partnership to do that.
    So you are in this hearing paying attention to the 
facilities that precede the future construction, that feed in, 
in many cases, to future construction projects. We have really 
worked with the NSF a very long time on trying to develop a 
policy that works well to make that transition. Our 
observatories, like many others in the NSF that are in this pot 
of money called research infrastructure, have declined in 
budget over the last couple of years. So I know today is not 
one that you want to dwell on the budget but it is true that 
the declining percentage of the NSF budget and research 
infrastructure is a concern. Earlier this week, NOAO was forced 
to terminate about ten percent of its workforce because of the 
belt tightening, and we will have to do for Gemini in the 
future. I expect other observatories will go through the same 
issue.
    But I do want to address some of the policy issues that you 
mentioned. First, the issue of recompetition. I would start by 
saying the primary goal that the NSF should have is building 
strong, effective national organizations that work with the 
community and fulfill the NSF mission. Recompetition is one 
tool to effect that, but I wouldn't say it was the only tool or 
even the most important one, but if you start from that first 
premise, what we need to do to make AUI or AURA a very 
effective leader in developing the community, recompetition 
comes into play and so we do acknowledge the value of this but 
there are many circumstances in which you would make a 
different decision other than recompete the contract, and this 
was certainly the issue that Dr. Schreier mentioned with ALMA 
and NRAO. So there are other features of this overall goal that 
I think should be examined before the decision to recompete is 
actually made.
    The second issue was one of decommissioning facilities, and 
again, this is an extremely important issue for us. The NSF has 
a very sound and well-developed policy for beginning 
construction projects, operating projects. For decommissioning 
facilities, there isn't a clear approach yet, and I illustrate 
one such example in my testimony. We would like to shut down 
our facilities in Sac Peak but just in terms of relative 
budgets, it costs about a million dollars a year to operate but 
it may take $7 million or $8 million to decommission. When you 
sit in Indian tribal lands or Forest Service lands and have to 
return those to their natural state, this can be a very 
substantial cost. And so decommissioning doesn't come for free, 
and my testimony recommends that some addressing of this be put 
in the NSF budget just as construction projects were.
    You asked about international collaborations. I am almost 
out of time. It is very important for the U.S. community to 
fulfill its goals through such collaborations, so they are very 
important.
    I will just end by acknowledging the second half of the 
title of this hearing, ensuring fiscal responsibility and 
accountability, and that is a prerequisite to everything else 
we do. We all know that. We work very hard, take it very 
seriously to get it right. I would say that it is a continuous 
process. The NSF has a very robust way of looking at what we 
do, our accounting processes. That is very appropriate. I would 
say that our systems are in constant change as we engage in 
this dialog with the NSF, but I think that we have a system 
that fulfills your mandate to ensure this fiscal 
responsibility.
    [The prepared statement of Dr. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] 74056.027
    
    [GRAPHIC] [TIFF OMITTED] 74056.028
    
    [GRAPHIC] [TIFF OMITTED] 74056.029
    
    [GRAPHIC] [TIFF OMITTED] 74056.030
    
    [GRAPHIC] [TIFF OMITTED] 74056.031
    
    [GRAPHIC] [TIFF OMITTED] 74056.032
    
    [GRAPHIC] [TIFF OMITTED] 74056.033
    
    [GRAPHIC] [TIFF OMITTED] 74056.034
    
    [GRAPHIC] [TIFF OMITTED] 74056.035
    
    [GRAPHIC] [TIFF OMITTED] 74056.036
    
    [GRAPHIC] [TIFF OMITTED] 74056.037
    
    [GRAPHIC] [TIFF OMITTED] 74056.038
    
    [GRAPHIC] [TIFF OMITTED] 74056.039
    
    [GRAPHIC] [TIFF OMITTED] 74056.040
    
    [GRAPHIC] [TIFF OMITTED] 74056.041
    
    [GRAPHIC] [TIFF OMITTED] 74056.042
    
    [GRAPHIC] [TIFF OMITTED] 74056.043
    
    [GRAPHIC] [TIFF OMITTED] 74056.044
    
    [GRAPHIC] [TIFF OMITTED] 74056.045
    
    Chairman Brooks. Thank you, Dr. Smith, for your insight.
    At this time the Chair recognizes Dr. Divins for five 
minutes.

                 STATEMENT OF DR.DAVID DIVINS,

                  VICE PRESIDENT AND DIRECTOR,

                    OCEAN DRILLING PROGRAMS,

               CONSORTIUM FOR OCEAN LEADER, INC.

    Dr. Divins. Thank you, Mr. Chairman and distinguished 
Members of the Committee for the opportunity to testify this 
morning.
    The Consortium for Ocean Leadership is a consortium of 
academic institutions involved in ocean sciences. We have been 
through our predecessor organization, Joint Oceanographic 
Institutions, managing the drilling program, scientific 
drilling programs for NSF for close to 40 years now. The U.S.-
support scientific drilling programs are probably one of the 
earth sciences longest-running and most successful 
international collaborations that we have and we are continuing 
to open new doors, for example, with nonprofit organizations 
such as the Moore Foundation to participate in the scientific 
advancement for our program and for our community through 
funding, observatory instrumentation and other areas to 
supplement the NSF funding.
    Ocean drilling has been very successful in itself in terms 
of the science, contributing significantly to a broad range of 
accomplishments within the earth science disciplines. It has 
advanced our understanding of solid earth cycles, revealed the 
flow of fluid in microbe ecosystems beneath the sea floor, and 
has gathered extensive information on earth's climate history. 
The Integrated Ocean Drilling Program, or IODP, is the current 
phase of scientific ocean drilling, and IODP builds on the 
successes of earlier programs, the Deep Sea Drilling Project 
and the Ocean Drilling Program, to expand our view of earth 
history and global processes through ocean basin exploration, 
and the ocean basins are the place to go and do this because 
they are untouched by human interaction and so we have millions 
of years of earth system changes that are recorded in the 
sediments and the rocks below the sea floor, providing a unique 
baseline that we can then measure past and future planetary 
changes against.
    IODP is different from the other two drilling programs that 
have come before it in that it is a multi-platform program. It 
is an international program. There are three drilling platforms 
that are involved. The United States brings to the table the 
JOIDES Resolution, which is again, that is our facility. The 
Japanese contribute their ship, which is the Chikyu, and the 
Europeans bring a mission-specific platform, which is a unique 
platform tailored to a specific expedition. The JOIDES 
Resolution, or the JR, is the riserless platform, which is the 
technology used for the drilling, and it is the U.S. 
contribution, as I said.
    After 20 years of service in the ocean drilling program, 
the JR was modernized and retrofitted with funds provided by 
the MREFC account. The JR underwent a $150 million two-year 
renovation and returned to service in 2009, and this 
comprehensive refit, which extended the facility's life by 20 
years, included a replacement of all structures forward of the 
derrick, which is basically the front half of the ship. A new 
multi-floor laboratory was incorporated into the structure of 
the hull and incorporated into the ship itself with the 
majority of the science systems either being renovated or 
completely replaced. The ship now holds state-of-the-art 
analytical equipment for on-board core descriptions and 
equipment for a wide variety of microbiological, geotechnology 
and analytical chemical investigations.
    Now, the concern is, Dr. Smith was talking about the 
changing availability of funding for these large facilities 
becoming an increasing issue. When the JR came out of the 
shipyard back in 2009, the prices of oil, as you can remember, 
were skyrocketing and are still continuing to increase. That 
has had a serious impact on the operation and maintenance 
budget that we have available for the JR. The result was a 
decrease in operational days from 12 months, basically 365 days 
a year operations, to only 8 months of operations. This has a 
serious effect, possibly jeopardizing our international 
contributions to participate in future programs where the 
facility is not operated at its peak level, and the reality 
really is that for a small 20 percent increase, you could get 
40 percent more science and deliver much more groundbreaking 
and fundamental science.
    The other thing I would like to say is the Ocean Drilling 
Program is nearing its--its current contract ends at the end of 
fiscal year 2013 and we will be--there is a program at the 
National Science Board to extend the program for one more year 
with a contract extension which then would be followed by a 
five-year cooperative agreement with a complete recompete is 
the process here, and for us, the recompetition--we don't own 
the facility, NSF does not own the facility. It is a leased 
facility. You put in jeopardy--by having these recompetitions, 
you put in jeopardy that contract that is in place that the 
costs may become prohibitive or out of reach for NSF, given the 
funding levels that we have.
    And so thank you very much.
    [The prepared statement of Dr. Divins follows:]
    [GRAPHIC] [TIFF OMITTED] 74056.046
    
    [GRAPHIC] [TIFF OMITTED] 74056.047
    
    [GRAPHIC] [TIFF OMITTED] 74056.048
    
    [GRAPHIC] [TIFF OMITTED] 74056.049
    
    [GRAPHIC] [TIFF OMITTED] 74056.050
    
    [GRAPHIC] [TIFF OMITTED] 74056.051
    
    [GRAPHIC] [TIFF OMITTED] 74056.052
    
    [GRAPHIC] [TIFF OMITTED] 74056.053
    
    [GRAPHIC] [TIFF OMITTED] 74056.054
    
    Chairman Brooks. Thank you, Dr. Divins, for your testimony 
and insight.
    Dr. Boebinger, you now have five minutes.

          STATEMENT OF GREGORY S. BOEBINGER, DIRECTOR,

            NATIONAL HIGH MAGNETIC FIELD LABORATORY,

                   AND PROFESSOR OF PHYSICS,

       FLORIDA STATE UNIVERSITY AND UNIVERSITY OF FLORIDA

    Dr. Boebinger. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Greg Boebinger. I am the Director of 
the National High Magnetic Field Laboratory and a Physics 
Professor at Florida State University and the University of 
Florida.
    The MagLab is a multi-user research facility that is 
supported by a partnership of the NSF and the State of Florida. 
It is a fine example of the benefits of a federal-state 
partnership. Since its founding in 1990, in fact, the MagLab 
has received roughly $500 million from the NSF and $350 million 
from the State of Florida. High magnetic fields play a critical 
role in developing new materials that affect nearly every 
modern technology. Our entire electricity-driven lifestyle, 
motors, computers, high-speed transistors as well as important 
biomedical tools such as MRI rely on the knowledge gained from 
magnetic-field research.
    The scope of work currently underway at the MagLab is vast. 
It includes the study of new superconductors, batteries and 
fuel cells with the potential to revolutionize energy delivery 
and storage. It also includes the search for new medicines and 
a crucial analysis of petroleum and biofuels that could lead to 
better fuel production. The MagLab has campuses at Florida 
State University, the University of Florida and Los Alamos 
National Laboratory. Every year, MagLab facilities are used by 
1,200 scientists from more than 100 institutions across the 
United States. Access is through a peer review of proposals 
submitted by users, whose work spans material physics, magnetic 
engineering, chemistry, biology and biomedicine.
    Funding for the MagLab comes in three competitive stages. 
The first is a full recompetition such as occurred in 1990 for 
the MagLab and per National Science Board policy is expected 
again in 2016. A full recompetition is a winner-take-all 
competition to win the right to establish and operate the 
Nation's magnet lab.
    The second stage of competition is our five-year renewal 
proposal process. Each renewal proposal includes the 
development of a new and updated scientific vision as well as a 
new zero baseline budget for the facility. Renewal proposals 
are peer reviewed by both anonymous referees and an expert NSF 
site visit committee. It takes 2-1/2 years to complete each 
five-year renewal proposal process.
    The third stage of competition determines the MagLab's 
funding on an annual basis when the NSF budget decisions are 
made. These decisions weigh competing demands on limited 
resources and take into account the annual evaluation of the 
laboratory's performance by the MagLab's user committee and the 
NSF site visit committee. Competitive review is therefore 
already built into the NSF oversight of its multi-user research 
facilities. As such, consideration of a full recompetition 
should begin with a formal process to determine whether a 
winner-take-all recompetition is in the best interest of the 
Nation and the science. The process should analyze whether the 
present facility is underperforming or failing to provide the 
infrastructure and support needed for world-leading research. 
The process should also assess the cost of a full recompetition 
and the impact of a winner-take-all recompetition on future 
funding by partners who have already invested significantly in 
the facility. Future NSF recompetition policy must be flexible 
because every multi-user research facility is different. Each 
facility here today represents a unique funding portfolio, a 
complex infrastructure and an equally complex relationship with 
its user community and its managing institutions. Each of the 
MagLab's three partner institutions contributes valuable 
infrastructure and expertise including professors serving in 
management roles and research scientists providing support for 
user research. The MagLab's buildings, infrastructure and 
equipment are not federally owned. As such, a full 
recompetition of the MagLab is a decision whether to relocate 
the Nation's high magnetic-field facility and build it 
somewhere else.
    As MagLab Director, I want to emphasize that I welcome the 
ongoing challenge of competitive review by both our users and 
our sponsors. It ensures its scarce resources are used to 
support the best science and the best management of important 
national assets. At the same time, given the complexity and 
costs involved in a winner-take-all recompetition, a flexible 
recompete policy is necessary.
    I thank you very much for this opportunity to testify, and 
I would be pleased to answer any questions.
    [The prepared statement of Dr. Boebinger follows:]
    [GRAPHIC] [TIFF OMITTED] 74056.055
    
    [GRAPHIC] [TIFF OMITTED] 74056.056
    
    [GRAPHIC] [TIFF OMITTED] 74056.057
    
    [GRAPHIC] [TIFF OMITTED] 74056.058
    
    [GRAPHIC] [TIFF OMITTED] 74056.059
    
    [GRAPHIC] [TIFF OMITTED] 74056.060
    
    [GRAPHIC] [TIFF OMITTED] 74056.061
    
    [GRAPHIC] [TIFF OMITTED] 74056.062
    
    [GRAPHIC] [TIFF OMITTED] 74056.063
    
    [GRAPHIC] [TIFF OMITTED] 74056.064
    
    [GRAPHIC] [TIFF OMITTED] 74056.065
    
    [GRAPHIC] [TIFF OMITTED] 74056.066
    
    [GRAPHIC] [TIFF OMITTED] 74056.067
    
    [GRAPHIC] [TIFF OMITTED] 74056.068
    
    [GRAPHIC] [TIFF OMITTED] 74056.069
    
    [GRAPHIC] [TIFF OMITTED] 74056.070
    
    [GRAPHIC] [TIFF OMITTED] 74056.071
    
    Chairman Brooks. Thank you, Dr. Boebinger.
    At this point the Chair recognizes Dr. Gruner for five 
minutes.

         STATEMENT OF DR. SOL MICHAEL GRUNER, DIRECTOR,

            CORNELL HIGH ENERGY SYNCHROTRON SOURCE,

    AND THE JOHN L. WETHERILL PROFESSOR OF PHYSICS, CORNELL 
                           UNIVERSITY

    Dr. Gruner. Thank you, Chairman Brooks, Ranking Member 
Lipinski and distinguished Members of the Subcommittee. Thank 
you for the opportunity to testify today.
    My name is Sol Gruner and I am the Director and Principal 
Investigator of the Cornell High Energy Synchrotron Source, 
CHESS. CHESS provides X-ray resources essential to users 
working in physics, chemistry, material science, geology, 
biology, biomedicine, engineering, environmental science and 
even art restoration archaeology. The X-ray beams are generated 
by an accelerator machine a half mile in circumference in a 
tunnel underneath the central Cornell University campus. The 
machine uses both matter and antimatter particles passing 
through magnets to generate X-ray beams millions of times more 
brilliant than possible with conventional X-ray machines.
    The NSF-funded facility was built in under two years and 
started operations in 1979. It has since been repeatedly 
upgraded during competing renewals, which occur roughly every 
five years, to maintain world-class capabilities. These, by the 
way, are existential competing. NSF annual support for CHESS is 
about $20 million with an additional roughly $15 million from 
Cornell, the National Institutes of Health and related grants. 
The facility staff of about 150 people hosts between 600 and 
1,000 user visits a year by students, scientists and engineers 
from 38 states and territories and 24 countries who use the X-
ray beam for an extraordinary variety of purposes. The result 
is about one scientific publication per day of X-ray 
operations.
    The American taxpayer supports CHESS to fulfill three 
missions. The first one, of course, is world-class science, the 
second one is new technology development, and the third one is 
student training. Repeated NSF external reviews have confirmed 
that CHESS is extremely successful at all three missions. 
Examples of scientific results including fundamental work on 
fluid jets underpinning fluid injection in engines, basic 
pharmaceutical and biomedical science, discovery of new polymer 
ceramic composite materials, studies of materials at center of 
earth pressures, studies of famous paintings, etc. Our users 
have won many awards including Nobel Prizes.
    The facility is a world leader in developing synchrotron 
technology. Synchrotrons are tools enabling much science and 
industry, and for this reason, there is a fierce international 
competition for technological supremacy in the field. Many of 
the technologies that have enabled the field, many of those 
which now are operating, for example, at DOE laboratories, were 
developed at our facility. We are world leaders in 
superconducting acceleration, X-ray detectors, optic simulators 
and many more areas.
    Perhaps our most important function, however, is student 
training. Student training is closely linked to innovation. Our 
graduate students develop new ideas from concept through to 
implementation. They are in the control room and behind the 
shielding wall, meaning that the build the facility and learn 
how to make it better. This type of access is consistent with 
the university mission and is essential to training the 
innovators of tomorrow and the key to winning in the highly 
competitive synchrotron radiation field. In addition to 
receiving technological training, our students are immersed in 
frontier science working with users from across the world and 
across the country, thereby equipping them for future 
leadership roles.
    A cooperative agreement with the NSF details numerous 
specific steps to ensure that government funds are spent 
accountably and responsibly. These include metrics, regular 
written reports, audits and external reviews.
    I would like to close with the challenge that I believe 
threatens the very existence of major NSF interdisciplinary 
facilities, especially at universities. As you know, the NSF is 
divided into divisions, each devoted to a discipline such as 
chemistry or physics or biology. Now, consider the work of one 
of our users, Dr. Rod MacKinnon from Rockefeller University, 
who used our accelerator, which was designed for physics, and 
the CHESS facility, which is funded by the material science 
division. His work depended on apparatus we custom-built using 
methods from astronomy and engineering, allowing Dr. MacKinnon 
to resolve a seminal biological problem of biomedical 
importance, for which he won the Nobel Prize in chemistry. Now, 
I ask you, what division owns that research? It is a quandary. 
And perhaps it won't surprise you that each NSF division seems 
to feel that some other division should steward the costs. The 
path of least resistance, the path that I fear the agency is 
on, is to simply terminate broadly interdisciplinary 
facilities, especially at universities where student 
involvement mixes the disciplines. The temptation to do this is 
especially pronounced during tight fiscal times when the 
easiest way to increase the number of grants that a division 
can offer is to decrease large-facility obligations. I 
respectfully submit that this issue deserves your attention.
    Thank you, and I would be pleased to answer questions.
    [The prepared statement of Dr. Gruner follows:]
    [GRAPHIC] [TIFF OMITTED] 74056.072
    
    [GRAPHIC] [TIFF OMITTED] 74056.073
    
    [GRAPHIC] [TIFF OMITTED] 74056.074
    
    [GRAPHIC] [TIFF OMITTED] 74056.075
    
    [GRAPHIC] [TIFF OMITTED] 74056.076
    
    [GRAPHIC] [TIFF OMITTED] 74056.077
    
    [GRAPHIC] [TIFF OMITTED] 74056.078
    
    [GRAPHIC] [TIFF OMITTED] 74056.079
    
    [GRAPHIC] [TIFF OMITTED] 74056.080
    
    [GRAPHIC] [TIFF OMITTED] 74056.081
    
    [GRAPHIC] [TIFF OMITTED] 74056.082
    
    [GRAPHIC] [TIFF OMITTED] 74056.083
    
    [GRAPHIC] [TIFF OMITTED] 74056.084
    
    Chairman Brooks. Thank you, Dr. Gruner.
    I thank the witnesses, each of them, for their valuable 
testimony and the Members for their upcoming questions. At this 
point I recognize myself for questioning for five minutes. The 
Chair will then recognize other Members for five minutes.
    The first question I have is for all witnesses. What 
perceived or anticipated benefits, detriments or 
vulnerabilities could the research conducted at your facilities 
or the communities you serve face by regular recompetition of 
multi-user facility operating awards? Whoever wishes to go 
first. If not, I will start on the right with Dr. Gruner, but 
if someone else wants to go first, jump at it.
    Dr. Gruner. We have been recompeted every five years for as 
far back as I can remember. Because the facility is physically 
embedded in Cornell University, because all the equipment is 
owned by Cornell University, there doesn't seem to be too much 
in the way of choices. So we deal with every recompetition as 
existential. Either they are going to fund us and we will 
continue, or they will not fund us and we will simply go out of 
business. This is considerably different than a freestanding 
facility where you can recompete the operators and the staff 
stays. In our case, if we fail the recompetition, not only do 
the operators leave but, of course, the staff are dismissed. 
This helps focus the mind.
    Chairman Brooks. Dr. Boebinger?
    Dr. Boebinger. Yeah, I agree with everything my colleague, 
Dr. Gruner, said. In addition, for the magnet lab at least, 
because we have such a large involvement from the State of 
Florida, it is difficult to see how and why the State of 
Florida would be putting up 35 percent of the funding if they 
felt that every five years there was a winner-take-all 
competition. Of course, it is a double-edged sword. It could be 
that it gets everyone's attention. The primary point that I 
would make is that as my colleague said, every five years these 
renewal proposals are not a case of showing up and asking for 
one's allowance. It starts with a zero-balance budget and it 
ends up with a decision that really does determine the 
existence of the user facility at the university for the next 5 
years.
    Chairman Brooks. Dr. Divins?
    Dr. Divins. Again, I would like to agree with what has been 
said. Our case is a little different than the rest of the panel 
in that the facility in question is not actually owned by the 
National Science Foundation or by Ocean Leadership, for 
example. It is a contracted vessel that we receive. We work 
out, in this case, a ten-year contract with the owner of that 
vessel. Having regular competition could have a pros and cons 
in that model. If the economic situation is such that the 
vessels are not in demand, we could negotiate a nice lower rate 
on the facility. If the economic conditions are such that, you 
know, oil is booming, they want to use the ship for other 
purposes, then we risk losing the facility due to making the 
cost of having the contract might be prohibitively expensive. 
So there is a balance there in terms of doing that as an annual 
competition, but the other part, in addition to the actual ship 
is that we do have facilities that are contributed to IODP 
through our academic partners. For example, Texas A&M 
University and Lamont Doherty Earth Observatory of Columbia, 
they provide in kind buildings and overhead and other 
activities that if you were to do this as a constant winner-
take-all procedure, you know, you could potentially be having 
to either build new buildings, hire new staff on a regular 
basis. So it really is a delicate balance between where are the 
pros and where are the cons to make an annual recompete 
process.
    Chairman Brooks. Dr. Smith?
    Dr. Smith. Thank you. You asked the question from the 
community standpoint, which is appropriate, and I think really 
the community should be heard when the agency is making a 
decision to recompete. I will go back to something that I said 
earlier, and that is, if the first question is, is this 
organization serving the community in the best possible way, 
you start from that and then ask how can it be better, and I 
think there is one issue that I illustrate in my testimony, and 
that is, if recompetition precludes organizations from 
consolidating, which can certainly offer cost benefits and 
efficiencies to the community, then the recompetition is not in 
the best interests of the community, and that certainly can 
be--that is an issue that we face. Dr. Schreier mentioned the 
same one from his standpoint. It is a common issue. And so in 
our case, we are willing to compete. I think we will compete 
strongly. But there ought to be other avenues to allow us to 
restructure to be more effective, and when recompetition 
impedes those, then there should be some process for looking at 
the alternatives.
    The other issue I wanted to point out is that in many 
cases, for example, with our work with the National Solar 
Observatory, we are in the process of heading into the 
advanced--a major facility advanced technology solar telescope, 
which means that I am signing very large contracts and making 
very large commitments. It is inconceivable to me that you 
would have a process where I am unplugged and somebody else 
steps in to sign the same contracts. I don't know how that 
process will work. Again, we will compete strongly but there is 
a large uncertainty just in pure legal and logistical terms how 
you make that transition, and I have to say, it is very, very 
daunting.
    Chairman Brooks. Dr. Schreier?
    Dr. Schreier. Thank you. I agree with many of the previous 
comments, especially Dr. Smith's. One point I could add is that 
in the case I was discussing, there are many complex 
international agreements involved in running these facilities. 
Some are government-to-government but many are the legal 
responsibility of the parties who do the work like my 
organization. We have agreements with Chile. We are subject to 
Chilean labor laws. For example, if ALMA is recompeted, if a 
new organization takes over ALMA, all the 300 staff in Chile 
have to be fired, given severance pay and rehired by a new 
organization. The labor laws are very strict there. There are 
relationships with our foreign partners in terms of ALMA being 
a joint project. It is a very expensive project. We pay less 
money because other countries are participating but we also 
have to negotiate from a position of strength with, for 
example, Europe and with Japan in terms of how we support our 
scientific communities. The European organization is extremely 
strong. It represents 13 European countries. We have developed 
relations with them through the years, and we know how to 
maneuver this situation. A new organization will have to start 
from scratch, figure out how to negotiate, how to work 
together. These are very important factors that can't be 
ignored in a recompetition.
    Chairman Brooks. Thank you, Dr. Schreier and the other 
witnesses.
    At this point the Chair recognizes Mr. Lipinski of Illinois 
for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I appreciated the witnesses' comments on the recompetition. 
One thing I just want to follow up, hopefully very quickly, Dr. 
Smith. I think you had mentioned a couple times when we were 
talking about recompetition that there would be alternatives. 
Is there anything more that you can say on that? What are you 
talking about?
    Dr. Smith. Yeah. I thank you for asking me to be specific. 
There was something on my mind. The Astronomy and Astrophysics 
Decadal Survey a couple of years ago recommended that the NSF 
consider ways of consolidating the National Optical Astronomy 
Observatory, NOAO, and Gemini. They sit on similar sites. They 
serve the same community but they are separate programs now. We 
thought that was a serious recommendation and we certainly 
wanted to examine all aspects of that, but the National Science 
Board's decision was that when you take two organizations that 
are under separate cooperative agreements and somehow entangle 
them or merge them, then that impedes recompetition because of 
the coupling and so we're not now considering consolidating 
those two organizations, notwithstanding the recommendation of 
the decadal survey. There may be or may not be, we just haven't 
had a chance to examine it, a tremendous cost savings. There 
certainly would be advantages for the U.S. community. It would 
be very difficult, of course, to accommodate all the 
international partners but it is a situation which because the 
recompetition itself became the highest principle, the more 
important matters of just building a stronger, more responsive 
organization are things that are off the table. We can't 
examine that.
    Mr. Lipinski. Dr. Schreier?
    Dr. Schreier. I would like to add to that. I think that is 
a very important point that Dr. Smith made. I can tell you from 
the mirror image standpoint, we are currently operating ALMA 
and NRAO together. We have been asked by NSF because of the 
National Science Board's recommendation to assess the cost of 
splitting them, and we have done that. We submitted this 
information to NSF and they are analyzing it. But the first 
year of the spilt would cost approximately $27 million more to 
separate these facilities, you know, firing people, rehiring 
them, creating new infrastructure, and there would be a steady 
state increase of about $6 million a year. So we are talking 
about a steady state increase in cost of maybe five percent or 
so with the budget and a first-time cost that is much higher.
    The second point that Dr. Smith made, which I would like to 
emphasize, is that by being associated, by having the forefront 
facilities like Gemini and the National Optical Astronomy 
Observatory, and ALMA and the radio facilities is one way we 
maintain our technology expertise, by working on the forefront 
instrumentation, and that is essential. If you are relegated to 
separating these facilities and just maintaining things at the 
odd facilities and not the new facilities, then you lose your 
expertise. It goes somewhere else, and that is something I 
think the United States wouldn't want to do.
    Mr. Lipinski. I want to move on to the issue of 
decommissioning plans and costs, and Dr. Smith has recommended 
that NSF considering allowing for decommissioning costs within 
the MREFC budget, and I just want to open up to the rest of the 
panel, do you agree with this recommendation? Do you have any 
additional suggestions regarding de commissioning that we 
should consider?
    Dr. Smith. Can I just maybe offer one clarification?
    Mr. Lipinski. Yes.
    Dr. Smith. I would really like to see decommissioning 
because it is a large one-time cost relative to your operating 
budget be handled in some agency-wide budget like MREFC, if not 
MREFC, but there could be some other agency-wide pool of money 
that you could use to address that.
    Mr. Lipinski. Thank you for that clarification.
    Does anyone else have any comments? Dr. Boebinger?
    Dr. Boebinger. Yes. For the magnet lab, the issue of 
decommissioning I think is very different than for some of my 
colleagues on the panel. We have a sufficiently large suite of 
magnets that typically for us decommissioning is getting 
funding for the next higher performing magnet, and so then we 
take the old one offline. It was similar to the graph that was 
shown for telescopes but it is a much smaller financial scale, 
and so I don't see a need at least for us to have a formal 
process for decommissioning. In fact, this upgrading of 
equipment is one way that we get involvement by NIH and 
Department of Energy as we propose new magnets. So at least for 
the magnet lab, I don't think it is a budgetary issue.
    Mr. Lipinski. Anyone else? Dr. Schreier?
    Dr. Schreier. I can add an example to what was just said. 
The Very Large Array in New Mexico, which is 27 antennas spread 
across the plains of San Agustin, was the forefront facility 
dedicated in 1980. It was the best radio telescope in the 
world. In the 1990s, the National Science Board approved an 
upgrade and for something less than, significantly less than 
$100 million, that same telescope was just rededicated two 
weeks ago as the Jansky Very Large Array and is between ten and 
1,000 times more powerful just by virtue of replacing the 
electronics. So this has become a brand-new telescope that is 
now a half-billion-dollar-class telescope developed not by 
decommissioning, but by just replacing 1970s vintage 
electronics and correlators and receivers with 2000 vintage 
equipment. This is a very powerful way to proceed and it 
doesn't happen automatically, but it is a very cost-effective 
way to get new capabilities.
    Mr. Lipinski. Dr. Divins?
    Dr. Divins. I would like to second that. I mean, that is 
exactly what has happened with our facility over the years, 
that as the existing infrastructure becomes dated, the MREFC 
program was the way to--you know, we didn't have to 
decommission, we just reinstituted a new program and a new 
facility and we got the latest state-of-the-art technology. It 
didn't have to be the same ship in our case. It was an open 
competition for any vessel but it would have given us a new 
facility, and what we ended up with was much better than what 
we had and we didn't have to actually shut down any facility. 
We just transitioned to the new one. It was, I think, a very 
cost-effective way to handle it.
    Mr. Lipinski. Dr. Gruner?
    Dr. Gruner. I would like to add to that. There doesn't seem 
to be a very effective process to consider the costs of 
decommissioning versus the costs of upgrading or replacing the 
facility if the need for that facility continues to exist. It 
would be very helpful in fact if that were to occur.
    Mr. Lipinski. Thank you. Obviously, each situation, each 
facility is very different in these considerations, and that 
has to be taken into account, so I appreciate hearing all the 
different perspectives, and I yield back.
    Chairman Brooks. Thank you, Mr. Lipinski.
    The Chair next recognizes Mr. Tonko of New York.
    Mr. Tonko. Thank you, Mr. Chair.
    Dr. Gruner, from your testimony, it appears clear that 
there is a high demand for the use of the Cornell facility. 
Does the concept of recompeting this facility really apply in 
this case?
    Dr. Gruner. I don't think it applies in the same sense that 
it would apply to recompeting the operation of a standalone 
facility. And, as I had mentioned, because demand continues to 
be high and because we either continue or go out of existence 
as a facility, the decision really is not whether we want to 
transfer operations to another operator but whether there is 
enough service going on to the Nation to justify the continued 
expenditure. So in that sense, a competing renewal makes a 
great deal of sense. A recompetition of the operation of the 
facility does not.
    Mr. Tonko. And I think you are responding to that in that 
hypothetically if Cornell were to lose, you would lose too. 
There is probably no other facility that would show interest 
or----
    Dr. Gruner. I am not quite sure. It is worth noting that 
the history of the Cornell facility has been complex because it 
started out actually as two facilities, one of which dealt with 
high-energy physics. It was arguably the most productive high-
energy physics experiment in the world. It went on for 30 
years. And eventually that physics played out and the NSF and 
Cornell University terminated that activity. We then looked at 
what can be done with the physical apparatus because ultimately 
that represents a huge taxpayer investment, and it was clear 
that there is a tremendous demand, continued demand, for the X-
ray resources which also been going on over that entire period 
of time. That is what we would like to leverage on, where we 
feel we can best serve the American taxpayer.
    Mr. Tonko. And in your testimony, you described the process 
for reapplying to NSF for the operating support, I believe?
    Dr. Gruner. Yes.
    Mr. Tonko. Is this a rigorous review?
    Dr. Gruner. Oh, absolutely. The review typically consists 
of a proposal which encompasses what you want to do in the way 
of upgrading the facility, what the new research focuses will 
be, why it is justified to continue in a unique fashion certain 
activities or to create new activities that uniquely serve the 
country. These reviews are then sent out, or rather this 
proposal is sent out for written reviews. The written reviews 
come back and a national panel is assembled by the NSF to do a 
site review. They address both the concerns that might have 
occurred with the written review and things that they might 
have seen at the site review, and make a recommendation to the 
NSF as to whether the facility should be renewed at all.
    Mr. Tonko. So I am hearing that this type of review ensures 
that NSF funds are well spent on their given facilities based 
on information that they gather through the review?
    Dr. Gruner. I believe that is the case.
    Mr. Tonko. Can you think of any other interaction that NSF 
could do to strengthen the outcomes of the effectiveness or the 
efficiency of the funds?
    Dr. Gruner. Well, I think at this point the NSF has been 
struggling with the issue of what recompetition means for its 
broad portfolio of different kinds of facilities. I think it is 
very clear from where we sit at this table that no one size is 
going to fit all. The portfolio of facilities NSF operates are 
sufficiently diverse in terms of their ownership, the way they 
are run, who they serve, and the collaborations that they have, 
that some flexibility and common sense has to be applied in 
order to make the system work.
    Mr. Tonko. And if that facility at Cornell were to close, 
are there alternate sites for doing the work?
    Dr. Gruner. There are facilities operated by the Department 
of Energy, which of course are also light sources. But the 
system that has evolved in the United States is that our 
facility serves a very particular function. It complements what 
goes on in the DOE laboratories. If you go to every single one 
of the DOE laboratories, you will find that many of the people 
who lead those facilities or operate the accelerator or run 
their beam lines were trained at ours, because that is our 
function. We are an educational institution. We are able to 
train people by taking them behind the shielding wall where 
they can learn how to make these things work. It is not 
something that you can learn in a classroom. You actually have 
to have hands-on operation. That is largely incompatible with 
the mission of a facility that has to be operating all the time 
to get the maximum number of users through.
    Mr. Tonko. And you mentioned a wide array of disciplines 
that the facility is applying--is offering. Can you give us a 
few examples of research outside of high-energy physics that 
are being pursued?
    Dr. Gruner. Right now, high-energy physics is not being 
done on the machine. All the disciplines that I mentioned, 
chemistry, biology and so on are being done on the machine. So 
we have a very large base of people who are doing work on 
protein structure. These are the proteins that are basis of 
much of modern biotechnology. We have a very large contingent 
of people who are doing materials research on new kinds of 
polymeric materials. We are now engaged with the Air Force in 
trying to build a capability to help them understand how metals 
fail when they are repeatedly stressed. As you know, you have 
to change the skin of aircraft regularly because there really 
isn't a good understanding of the failure mechanisms. We have a 
very vibrant community that uses diamond anvil cells. These are 
diamonds where you crush materials to try to make new kinds of 
materials that would then be metastable; the ultimate goal is 
to make something stronger than diamond. The list goes on. It 
is very diverse. We had a group of people who are analyzing 
paintings. In the last few years we have discovered a new 
Brueghel the Younger painting. We revealed a painting that was 
covered over by N.C. Wyeth. It is just a very vibrant place in 
that regard.
    Mr. Tonko. I understand that. It is in upstate New York. So 
we thank you for the contributions you make to the country.
    Dr. Gruner. Thank you.
    Mr. Tonko. Thank you, Mr. Chair.
    Chairman Brooks. Thank you, Mr. Tonko.
    At this point the Chair recognizes Ms. Bonamici of Oregon 
for questions.
    Ms. Bonamici. Thank you so much, Mr. Chairman.
    I wanted to ask each of you a bit about what your 
facilities do to inspire students with regard to STEM 
education. I know, Dr. Schreier, you gave an example about 
pulsars and that you have interns, and you talked about AUI 
promoting STEM education but I would like to hear a little bit 
from each of you about whether you have outreach efforts and to 
any particular groups and how you bring students in and inspire 
them to pursue careers or to further their efforts in STEM 
education. Thank you.
    Dr. Smith. Yes. Thank you. This is an extremely high 
priority for us, and I think that AURA facilities, as the 
others here, offer a research experience for students, and so 
as they progress through their careers, whether they enter into 
the sciences or a STEM field or not, it is still extremely 
important that they see the working environment in which 
science gets done and that they see how scientists work and 
they learn to think critically. Again, it matters less whether 
they become scientists but they certainly need to understand, 
you know, how the STEM--how the sciences work and so we do have 
a very active program of bringing in students. There is a 
program, research experience for undergraduates. We are very 
active participants in that, which is an NSF program. It is 
very successful, and I would say that although it is very 
competitive, the diversity of the students coming in is 
absolutely impressive. I think we all know that the future 
challenge in the sciences is to make them more diverse, to 
bring in more women and minorities because that--we don't look 
very diverse today but we know that we have to achieve a much 
higher level of diversity in the future. So we are all working 
on that pipeline. Our facilities, I have some numbers in here 
but I will just tell you that we take it very seriously. It is 
a major--one of our major priorities.
    Ms. Bonamici. Thank you.
    And others? Yes, Doctor.
    Dr. Boebinger. Yes, I agree with what Dr. Smith said. The 
magnet lab has a Center for Integrating Research and Learning, 
so this is a team of professional educators who bring together 
the scientists at the magnet lab with the K-12 programs and the 
undergraduate research programs. So that group makes face-to-
face contact with 10,000 K-12 students every year. We also have 
an open house annually at the magnet lab. We get 5,000 people 
from the general public coming through. We have about 100 
hands-on exhibits. So there are programs that reach out to a 
broad audience. We also have programs where we are seeking to 
identify individuals to, if you will, get them networked and 
get that leg up. Among those programs is the Research 
Opportunities for Undergraduates program that brings 
undergraduates in for the summer to work in a laboratory. We 
also have a Research Experience for Teachers program for K-12 
teachers, and in particular we try to attract teachers and the 
majority of those teachers come from Title I schools. We also 
have a workforce initiative program where our scientists go out 
to HBCUs, women's institutes, and they give lectures. They talk 
about the research at the magnet lab. They have some funding 
that is made available that they can invite students to the 
summer programs and we found that that is a way to really form 
relationships that bring undergraduates and grad students into 
the larger network of research in the United States.
    Ms. Bonamici. Terrific. Any others?
    Dr. Schreier. I wouldn't mind adding to what I said before. 
I gave you only one example. We have several--we also 
participate in the Research Opportunities for Undergraduates. 
It is an interesting thing. One of the members of my board, who 
happens to be a professor at Cornell University and a member of 
the National Academy of Sciences, was a summer student at Green 
Bank in West Virginia in the 1970s while she was a student, and 
she became a scientist. We have visitor centers at both New 
Mexico and West Virginia. The Green Bank Telescope in West 
Virginia is in one of the poorest counties east of the 
Mississippi and has a very advanced science center courtesy of 
our existence there. We have programs for high school students 
there. We have been expanding this to Chile. We have had a 
sister cities program between San Pedro de Atacama in Chile and 
Magdalena, New Mexico. We have two interesting indigenous, not 
very advanced towns next to world-leading telescopes, and we 
set up a program whereby teachers and students were exchanged 
between the two. So people learn how these different cultures 
work, and also get interested in science, which they do. We 
have recently been--I have recently been personally talking 
with the University of Colorado, which has one of the better 
STEM education programs in the country teaching current 
teachers and first-year college students how to get more 
involved with science and mathematics to see how we can 
leverage the local programs we have in radio astronomy to a 
national level to improve STEM education.
    Ms. Bonamici. Thank you very much. My time is expired. 
Thank you.
    Chairman Brooks. The Chair is willing to entertain a second 
round of questions from the Members if any so desire. Seeing 
none, I would like to thank our witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:13 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Ethan J. Schreier
[GRAPHIC] [TIFF OMITTED] 74056.085

[GRAPHIC] [TIFF OMITTED] 74056.086

[GRAPHIC] [TIFF OMITTED] 74056.087

[GRAPHIC] [TIFF OMITTED] 74056.088

Responses by Dr. William S. Smith
[GRAPHIC] [TIFF OMITTED] 74056.089

[GRAPHIC] [TIFF OMITTED] 74056.090

[GRAPHIC] [TIFF OMITTED] 74056.091

[GRAPHIC] [TIFF OMITTED] 74056.092

Responses by Dr. David Divins
[GRAPHIC] [TIFF OMITTED] 74056.093

[GRAPHIC] [TIFF OMITTED] 74056.094

Responses by Dr. Gregory S. Boebinger
[GRAPHIC] [TIFF OMITTED] 74056.099

[GRAPHIC] [TIFF OMITTED] 74056.100

[GRAPHIC] [TIFF OMITTED] 74056.101

[GRAPHIC] [TIFF OMITTED] 74056.102

[GRAPHIC] [TIFF OMITTED] 74056.103

Responses by Dr. Sol Michael Gruner
[GRAPHIC] [TIFF OMITTED] 74056.095

[GRAPHIC] [TIFF OMITTED] 74056.096

[GRAPHIC] [TIFF OMITTED] 74056.097

[GRAPHIC] [TIFF OMITTED] 74056.098

                                 <all>

</pre></body></html>
